CAPITAL CASE
DOCKET NO. ____________
IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

MOTION TO PROCEED IN FORMA PAUPERIS

David D. Hendry
Florida Bar Number 0160016
Law Office of the Capital Collateral Regional
Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone No.
(813) 558-1600 ext. 624
Fax No.
(813) 558-1601
hendry@ccmr.state.fl.us
Attorney of Record for Petitioner

MOTION TO PROCEED IN FORMA PAUPERIS
The Petitioner, Ray Lamar Johnston, by and through the undersigned counsel,
and asks leave to file the attached petition for a writ of certiorari without prepayment
of costs and to proceed in forma pauperis.
[x] Petitioner has previously been granted leave to proceed in forma pauperis in the
following courts:
1) The Circuit Court, in and for the Thirteenth Judicial Circuit, Hillsborough County,
Florida (Petitioner was declared indigent and the Public Defender’s Office appointed
on 2-20-98 nunc pro tunc to 9-8-97. He was again “adjudged insolvent” on 5-3-00 for
purposes of appeal in the Florida Supreme Court);
2) The Supreme Court of Florida declared Mr. Johnston “Insolven[t]” and required
“no fee” for the direct appeal on 5-9-00.
3) Petitioner subsequently filed an affidavit of indigency in the in the United States
District Court for the Middle District of Florida in this case on 9-15-11 seeking In
Forma Pauperis status (Case No. 8-11-cv-020940-EAK-TGW). Judge Kovachevich
appointed counsel, ultimately denied the petition on the merits, then denied a COA
and In Forma Pauperis status on 9-22-14.
In a separate case, Case No. 8:11-cv-2327-T-23TBM in the United States District
Court for the Middle District of Florida, the Petitioner filed an affidavit of indigency
on 10-14-11. Judge Merryday “construed [the affidavit] as a motion for leave to
proceed in forma pauperis,” and granted the motion by Order rendered 12-14-11.
[x]Petitioner’s affidavit or declaration is not attached because courts below appointed
counsel in the current proceeding. The appointments were made under the following
provisions of law:
Counsel for Petitioner was appointed for representation under Florida Statute 27.710
in the state proceedings, and under the Criminal Justice Act of 1964, 18 U.S.C. §
3006A and 21 U.S.C. § 848(q) in the federal proceedings.

1

/s/David Dixon Hendry
DAVID DIXON HENDRY
DAVID DIXON HENDRY
FLORIDA BAR NO. 0160016
CAPITAL COLLATERAL REGIONAL COUNSEL—MIDDLE REGION
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FLORIDA 33637
PHONE NO. (813)558-1600 EXT 624
FAX NO. (813) 558-1601
ATTORNEY OF RECORD FOR PETITIONER

2

